Department of Homeland Security
   Ofﬁce of Inspector General



       Federal Protective Service Contract 

    Guard Procurement and Oversight Process





OIG-09-51                              April 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     April 6, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Protective Service’s
(FPS) procurement and oversight of its Contract Guard Program. It is based on
interviews with FPS employees and officials, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3


    Selection Methodology for FPS Guard Contracts ..........................................................3 

    Recommendations...........................................................................................................8

    Management Comments and OIG Analysis ...................................................................9 


    Oversight of FPS Guard Contracts ...............................................................................11 

    Recommendations.........................................................................................................18

    Management Comments and OIG Analysis .................................................................18 


Appendices
   Appendix A:          Purpose, Scope, and Methodology..........................................................21 

   Appendix B:          Management Comments to the Draft Report ..........................................23 

   Appendix C:          Major Contributors to this Report ...........................................................31 

   Appendix D:          Report Distribution..................................................................................32 


Abbreviations
     CCG              Consolidated Contracting Group 

     CERTS            Contract Guard Employment Requirements Tracking System

     COTR             Contracting Officer Technical Representative  

     DHS              Department of Homeland Security 

     FAR              Federal Acquisition Regulation 

     FPS              Federal Protective Service 

     GSA              General Services Administration 

     ICE              United States Immigration and Customs Enforcement 

     OIG              Office of Inspector General 





                   Federal Protective Service Contract Guard Procurement and Oversight Process
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    The Federal Protective Service uses contract guards to fulfill its
                    responsibility for the security of federal properties and personnel
                    across the nation. The objectives of our audit were to determine
                    whether the Federal Protective Service’s award selection practices
                    facilitate the procurement of guard service contracts in the
                    government’s best interests, and whether the agency’s oversight
                    activities provide reasonable assurance that contractors are
                    satisfying requirements.

                    The Federal Protective Service did not use consistent selection
                    practices to award guard contracts. The agency did not
                    consistently apply its selection methodology, define evaluation
                    factors, or staff its evaluation teams with the same mix of
                    personnel. Standard guidance for these practices is still being
                    developed. Inconsistent selection practices may lead to disparate
                    levels of service quality and open the agency to public criticism.

                    Federal Protective Service contract oversight activities did not
                    ensure that contractors were deploying qualified guards and
                    satisfying contract requirements. The agency did not consistently
                    perform or document guard and post inspections, monitor
                    certification records, review invoices, pursue deductions for
                    violations, or evaluate performance. This resulted from limited
                    oversight policies and procedures, the need for an agency-wide
                    inspection information system, and insufficient oversight
                    personnel. Until these shortfalls are addressed, the agency cannot
                    ensure that guards are complying with contract requirements or
                    effectively using past performance as an evaluation factor in guard
                    service procurements. This may lead to decreased security, putting
                    federal employees, facilities, and visitors at risk.

                    We are making six recommendations to the Federal Protective
                    Service, which should strengthen policies and procedures for the
                    contract guard program. We also address the need for an
                    information system and sufficient resources for the agency to
                    procure and oversee guard service contracts. The agency
                    concurred with our recommendations.


         Federal Protective Service Contract Guard Procurement and Oversight Process 


                                           Page 1 

Background
                  The mission of the Federal Protective Service (FPS) is to render
                  federal properties safe and secure for employees, officials, and
                  visitors in a professional and cost-effective manner by deploying a
                  highly trained and multidisciplined police force. To accomplish its
                  mission, FPS currently has a workforce of about 1,100 employees
                  and approximately 15,000 contract guards located throughout the
                  country.

                  In 2003, FPS was transferred from the General Services
                  Administration (GSA) to the United States Immigration and
                  Customs Enforcement (ICE) within DHS. FPS is currently tasked
                  with providing physical security and law enforcement services to
                  about 9,000 facilities owned or leased by the GSA.

                  FPS contracts with private companies for essential security guard
                  services, such as controlling access to facilities, checking
                  employee and visitor identification, monitoring security
                  equipment, and patrolling the interior and exterior of federal
                  facilities. These contractors are responsible for providing and
                  maintaining all services necessary to accomplish security as
                  described in the contract statement of work, including
                  management, supervision, manpower, training, equipment,
                  supplies, and licensing. FPS is responsible for ensuring that the
                  contractor follows the terms of the contract and assessing price
                  deductions for services that are not rendered.

                  Guard contracts are awarded and monitored by FPS employees in
                  the following roles and groups:

                  1) Consolidated Contract Group (CCG): Located within ICE
                     Office of Acquisition Management, the CCG provides
                     contracting support to FPS for guard services and other FPS
                     mission-related acquisitions.

                  2) Regional program offices: FPS’ 11 regional program offices
                     are responsible for monitoring, overseeing, and ensuring
                     quality using the following personnel:

                           �	 Contract guard program managers serve as the primary
                              focal points and liaisons among the customer tenant
                              agencies, CCG, and regional program office budget and
                              guard monitoring staff.


       Federal Protective Service Contract Guard Procurement and Oversight Process 


                                         Page 2

                             �	 Contracting officer technical representatives (COTR)
                                are responsible for monitoring the performance of the
                                FPS guard contracts. COTR functions include
                                performing inspections to ensure compliance with
                                contract terms, reviewing and approving invoices, and
                                periodically evaluating contractor performance.

                             �	 Inspectors support the COTRs in overseeing contract
                                guards, as well as completing security assessments and
                                responding to emergency situations. In some regions,
                                inspectors may also be designated as COTRs.

                    Generally, FPS evaluates contractor offers using "best value"
                    selection methods to ensure that guard services are procured in the
                    manner most advantageous to the government. According to the
                    Federal Acquisition Regulation (FAR) 2.101, “best value” is the
                    expected outcome of an acquisition that, in the government’s
                    estimation, provides the greatest overall benefit in response to a
                    requirement.

Results of Audit
     Selection Methodology for FPS Guard Contracts
           FPS did not use standardized evaluation methods for determining “best
           value” as a basis for its guard contract award decisions. Specifically, the
           agency did not consistently apply its selection methodology, define
           evaluation factors, or staff its evaluation teams with the same mix of
           personnel. Standard guidance for these practices did not yet exist; as of
           October 2008, guidance was still under development. As a result, guard
           contracts that provide similar services across the nation may not have been
           awarded in the government’s best interests. Inconsistent selection
           practices may lead to disparate levels of service quality and open the
           agency to public criticism.

                    Best Value Guard Contracts

                    We reviewed files for 31 contracts awarded between March 2007
                    and April 2008 with an estimated total value of more than
                    $529 million. We also reviewed three preaward contract files. We
                    reviewed these files to determine whether contracts were awarded
                    in a manner consistent with FPS’ goal of awarding contracts that
                    would be of "best value" to the government. One contract was
                    awarded to an incumbent contractor on a limited source basis in
                    accordance with the FAR 8.405-6. For nine contracts, it appears
                    that FPS made "best value" determinations by choosing the lowest

         Federal Protective Service Contract Guard Procurement and Oversight Process 


                                           Page 3

           bidders. For the remaining 21 contracts and 3 preawards, FPS
           made "best value" determinations after evaluating a variety of price
           and nonprice factors. See Figure 1.

           Figure 1. Basis of Award for Guard Contracts

                                  25
                                          21




               No. of Contracts
                                  20

                                  15

                                  10                    7

                                  5                                  3
                                                                                  2          1
                                  0
                                       Best Value    Low Bid-    Preaward-      Low Bid-   Limited
                                                      Interim    Best Va lue   Emergency   Source
                                                     Contracts

                                                              Basis for Award


           FPS awarded "lowest bid" contracts for two emergency
           procurements and seven interim contracts. FPS awarded these
           contracts solely on the basis of price. The nine "lowest bid"
           contracts were for guard services procured through GSA’s federal
           supply schedule using FAR 8.4. The prices for all services offered
           through the federal supply schedule are determined by GSA to be
           fair and reasonable. The agency awarded six interim contracts to
           the lowest bidders as a result of a September 2006 protest of FPS’
           efforts to award best value statewide contracts. The agency chose
           to issue these interim contracts on the basis of price until it could
           award new state-wide best value contracts that consider both price
           and non-price evaluation factors. However, as of October 2008,
           FPS was still using these low-bid interim contracts.

           The practice of awarding guard service contracts solely on the
           basis of price conflicts with the FPS’ contract guard acquisition
           plan, which states that performance or schedule requirements
           should not be compromised to obtain low cost. Due to competing
           priorities, FPS was unable to allocate the necessary personnel to
           process new state-wide contracts in a timely manner. FPS officials
           noted that 92 of the 123 guard contracts (75%) had to be processed
           and awarded in fiscal years 2007 and 2008, stretching the assigned
           personnel beyond their capacity.




Federal Protective Service Contract Guard Procurement and Oversight Process 


                                                    Page 4

           Best Value Technical Evaluation Factors

           FPS did not use a consistent set of factors to evaluate similar guard
           service contractor quotes and define best value for the 21 contracts
           and 3 preawards we reviewed that were evaluated using both price
           and nonprice factors. These best value technical evaluations
           included a consideration of price and a combination of nonprice
           factors such as corporate experience, management plan, past
           performance, quality control plan, socioeconomic status, and
           technical capability. See Figure 2.

           The contract files we
           reviewed had adequate                Figure 2. Definitions of Technical (Nonprice)
                                                Evaluation Factors
           support for the individual
           award decision, including            Past Performance: Successful performance of
           acquisition plans, criteria          projects of a similar size and complexity
                                                obtained from references and other sources.
           for selection, and award
           decision memorandums.                Management Plan/Approach: Techniques
                                                and actions described that demonstrate an
           However, contracting                 ability to successfully accomplish the
           officers used many different         government’s requirement.
           combinations of technical            Socioeconomic Status: Socially and
           factors to determine which           economically disadvantaged businesses will be
           contracts yielded the best           considered as a positive enhancement to the
                                                evaluation and trade-off process.
           value to the government for
                                                Corporate Experience: Currency and
           similar contract guard               relevance of past projects similar in scope and
           services. For example, 5 of          complexity to the government’s current
           the 21 procurements were             requirement.
           based on past performance            Quality Control Plan: A supervisory plan that
           and price factors; 2                 demonstrates the contractor’s clear and distinct
                                                understanding of the need for quality control.
           procurements were based
           on past performance,                 Technical Capability: Demonstration of
                                                technical resources, knowledge, and expertise.
           quality control plan, and            This may include a transition plan and quality
           price; and another was               control plan.
           based on past performance,           Source: Federal Protective Service Guard
           management approach,                 Contracts
           socioeconomic status, and
           price.

           The FAR does not require a specific formula for evaluating price
           and nonprice factors, but the practice of using different evaluation
           factors for similar services conflicts with FPS’ plan for a
           standardized guard acquisition process. Contracting officers used
           the different combinations of technical evaluation factors because
           national standardized guidance did not exist until June 2007. The
           contracts we reviewed were awarded either before or while FPS
           developed the guidance and, as a result, do not align with FPS’

Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 5

           intent to standardize the acquisition process for guard services
           nationwide. Because FPS awards guard contracts across all
           11 regions, the use of varying evaluation factors to define best
           value may leave the agency open to public criticism as well as
           receiving disparate levels of service quality.

           Proposal Evaluation Teams

           FPS’ evaluation guidance suggests that contract technical
           evaluation teams be composed of both regional program office and
           CCG contracting personnel. However, proposal evaluation teams
           were not consistently staffed according to FPS’ guidance.
           Regional program office staff was not always able to provide
           technical expertise or consistently participate on evaluation teams.

           According to regional program office and CCG personnel, certain
           regions do not have staff with the expertise required to evaluate all
           technical factors. One CCG official explained that even with
           instruction, some personnel could not effectively evaluate the
           quality of management plans submitted by different offerors.
           Ideally, the CCG would lead the procurement team to ensure that
           FAR requirements are met, while regional program office staff
           would serve as technical experts in evaluating contractor
           proposals.

           Staff shortages and competing priorities prevent FPS from
           ensuring that regional program office personnel have sufficient
           expertise, training in federal acquisition, and time to thoroughly
           evaluate contractor proposals. For example, one COTR recalled
           that he was required to respond to emergency law enforcement
           calls while participating on a technical evaluation team. CCG
           contracting staff at one office acknowledged that they do not
           usually include the regional program office in the technical
           evaluation process because they do not believe these employees
           are trained to conduct a thorough evaluation. They explained that
           regional program office teams could take weeks to prepare
           evaluation reports, which are often poorly written, because of the
           large number of contracts to be awarded and the shortage of
           trained personnel on the technical teams. Consequently, CCG
           personnel have had to make up for regional program offices’
           weaknesses to ensure that evaluations are legally defensible.

           FPS Progress in Standardizing Selection Practices

           In spring 2007, FPS began to standardize its approach for
           acquiring guard services by issuing a programwide acquisition plan

Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 6

                             and developing a national best value evaluation guide. Previously,
                             contracting officers developed separate acquisition plans for each
                             procurement, without overarching nationwide guidance from FPS.
                             The new program-wide plan describes FPS’ intent to compete all
                             guard service requirements and award contracts on a best value
                             basis after evaluating price and nonprice factors. FPS also
                             established a contract review board to review and approve
                             contracting actions at critical decision-making points in the
                             acquisition process to ensure that the government receives best
                             value for these actions.

                             The FPS’ standardized evaluation guidance is still under
                             development. The most recent iteration of the evaluation guide,
                             issued in February 2008, identifies four evaluation factors: price,
                             past performance, management approach, and socioeconomic
                             status. According to the guide, the highest weighted nonprice (or
                             technical) factor is past performance, followed by management
                             approach and socioeconomic status. The other factors shown in
                             figure 2—corporate experience, quality control, and technical
                             capability—have either been incorporated into the definitions of
                             the four required factors or eliminated.

                             Although development of the national evaluation guide represents
                             significant progress for FPS, regional program office and CCG
                             contracting staff expressed several concerns about the new
                             guidance. For example, some CCG contracting staff disagreed
                             with the weight assigned to the nonprice factors, and would prefer
                             greater emphasis on factors such as quality control and transition
                             plans. FPS’ national evaluation guide also indicates that the
                             contract guard manager may waive the management approach
                             factor, but gives no further guidance about when or why this factor
                             could be waived. Staff defended the waivers by explaining that
                             certain regions did not have staff with sufficient expertise to
                             evaluate this factor, and therefore, the factor added no value to the
                             procurement.

                             In addition, even though FPS designated past performance as the
                             highest rated technical (nonprice) factor in the new guidance,
                             information from the Contractor Performance System1 is often too
                             generic to be useful for an evaluation. According to contracting
                             staff at the three CCGs, not enough historical data are available
                             because FPS did not input contractor performance evaluations into
                             the system until recently. Although data from other agencies may
1
 The Contractor Performance System is a federal, multiagency, Web-based system created by the National Institutes of
Health to collect, maintain, and disseminate historical contractor performance information. The DHS Acquisition
Regulation requires DHS officials to use the Contractor Performance System to evaluate contractor performance.

                Federal Protective Service Contract Guard Procurement and Oversight Process 


                                                      Page 7

           be available in the Contractor Performance System, their
           usefulness may be limited because the performance questions and
           responses from these agencies are not specific to FPS
           requirements. Further, FPS primarily relied on questionnaires to
           obtain past performance information. This method allowed each
           contractor to select its best references, potentially hindering FPS’
           ability to get a realistic picture of the contractor’s overall, recent
           performance record.

           Contracts awarded based on best value evaluation factors are
           intended to ensure that the government makes good business
           decisions by using factors other than price. FPS is actively
           working to provide the highest level of security guard services
           possible, and will continue to provide these services to federal
           agencies for the indefinite future. Without comprehensive
           technical evaluation procedures, trained evaluation teams, and
           proper resource allocation, FPS may not be able to consistently
           procure guard contracts in the government’s best interests. Since
           FPS awards guard contracts for similar services across all
           11 regions, the agency may be open to public criticism if the
           contracts are awarded without consistent selection practices.

  Recommendations
           We recommend that the Head of Contracting Activity for the
           United States Immigration and Customs Enforcement, in
           coordination with the Director of the Federal Protective Service:

           Recommendation #1: Refine and complete standardized
           procedures and templates to ensure that the Federal Protective
           Service consistently solicits and awards guard contracts in the
           government’s best interests.

           Recommendation #2: Allocate sufficient Consolidated
           Contracting Group and regional program office staff to perform
           thorough technical evaluations and award timely follow-on guard
           contracts that are in the government’s best interests.

           Recommendation #3: Provide training to the regional program
           office personnel who participate in technical evaluations so that
           they can successfully evaluate contractor technical proposals to
           award best value guard contracts.




Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 8

  Management Comments and OIG Analysis
  The ICE Assistant Secretary concurred with the recommendations. ICE
  believes that the steps it is taking to address the issues raised in this report
  respond to each of our recommendations and will result in a better-managed
  and more accountable procurement and oversight process.

  Response to Recommendation #1

  ICE Response: ICE concurs. The Office of Acquisition Management and
  FPS continue to refine existing templates and develop new templates and
  standardized policies and procedures within the contract guard acquisition
  program to ensure contracts are awarded in the government's best interest.
  Specifically, the Office of Acquisition Management completed a full
  review and revision of the “request for quotation” template for FAR
  Part 8.4 (Federal Supply Schedules) on January 9, 2009 to incorporate best
  practices, lessons learned, and increased standardization. Some of the
  significant proposed changes include a complete re-write and mandatory
  use of the Management Approach evaluation factor, as well as
  enhancements in the evaluation of pricing on guard service procurements.
  ICE Office of Acquisition Management intends to issue the revised
  “request for quotation” template to the workforce, along with guidance
  concerning exceptions to its use. The office is also developing a “request
  for proposal” template for acquiring security guard services under the
  authority of FAR Part 15 (Contracting by Negotiation) and FAR Part 12
  (Acquisition of Commercial Items). It is anticipated that this template will
  be completed by April 30, 2009.

  While ICE continues to work to achieve consistency in the procurement of
  guard services, there might be circumstances where the use of the template
  would not provide the "best value" as defined in FAR 2.101. ICE
  acknowledges that it has yet to issue formal guidance to specifically
  advise when it is appropriate to deviate from the template, or what
  approvals are required in those instances. However, ICE intends to issue
  revised templates and guidance concerning exceptions to their use.

  OIG Analysis: ICE’s actions to refine existing contract guard
  procurement templates will help FPS consistently solicit and award guard
  contracts in the government’s best interest. This recommendation is
  resolved but will remain open until ICE completes and issues revised
  procurement templates and guidance on their use to the workforce.




Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 9

  Response to Recommendation #2

  ICE Response: ICE concurs. The agency acknowledges that proper and
  timely staffing of technical evaluations teams was a challenge during the
  period covered by the audit, particularly with the number of simultaneous
  acquisitions in progress and the highly competitive bidding environment
  for guard services procurements at that time. The significant increases in
  personnel staffing of contract specialists within the Office of Acquisition
  Management and inspectors within FPS during 2007-2008 will help
  resolve this issue. The Office of Acquisition Management and FPS have
  also made progress in the proper resourcing of technical evaluations
  teams. Specifically, FPS completed the development of the draft,
  “Acquisition Planning and Pre-Award Policy” on January 12, 2009. This
  draft policy, currently under review, defines the roles and responsibilities
  of FPS and Office of Acquisition Management personnel in the conduct of
  acquisition planning and technical evaluations supporting the contract
  guard program. The policy will prescribe use of established templates by
  evaluation teams, as well as the appropriate composition and mix of staff
  on evaluations teams. It is anticipated that this policy will be completed
  by April, 30 2009.

  OIG Analysis: The increase in staffing and FPS’ proposed policy will
  help to ensure that technical evaluation teams are sufficiently staffed and
  Consolidated Contracting Group and regional program office staff perform
  thorough technical evaluations and award timely follow-on guard
  contracts. This recommendation is resolved but will remain open until we
  are able to review a copy of the finalized “Acquisition Planning and Pre-
  Award Policy.”

  Response to Recommendation #3

  ICE Response: ICE concurs. The agency acknowledges the need for
  additional training of regional personnel who conduct technical
  evaluations. To improve, ICE now performs technical evaluations at a
  specific location where the technical team will have the Contracting
  Officer, ICE Office of Acquisition Policy, and the ICE Office of the
  Principal Legal Advisor available to help guide it through the evaluation
  process as it occurs. These technical evaluations begin with in-briefings,
  lessons learned from previous evaluations, and specific guidelines on how
  to perform the evaluations. Additionally, ICE plans to immediately begin
  including FPS regional personnel in Contract Review Board meetings, as
  well as provide best value training that specifically covers technical
  evaluation to regional program office personnel. ICE expects to have
  training developed and scheduled by no later than April 30, 2009.



Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 10

      OIG Analysis: Regional program office participation in Contract Review
      Boards and enhanced training and guidance should provide stronger
      evaluations of contractor technical proposals. This recommendation is
      resolved but will remain open until we have the opportunity to review the
      enhanced best value training curriculum and implementation schedule.

Oversight of FPS Guard Contracts
      FPS is responsible for ensuring that guard service contractors comply with
      contract terms. However, FPS’ oversight activities did not provide
      sufficient assurance that contractors satisfied requirements or deployed
      qualified contract guards. The four FPS regional program offices we
      visited conducted contract guard oversight differently. FPS did not
      consistently perform or document inspections of guards and guard posts,
      monitor guard certification records, thoroughly review contractor invoices,
      pursue deductions for contract violations, or regularly evaluate contractor
      performance. We attribute these shortfalls to FPS’ need for improved
      oversight policies and procedures, an agencywide information system to
      collect and report results of inspections, and sufficient personnel dedicated
      to oversight functions. Until these are in place, FPS cannot ensure that
      guards are fully complying with contract requirements or FPS is fully
      using contractor past performance as a best value evaluation factor in
      guard service procurements. More important, insufficient oversight may
      lead to decreased security, putting federal employees, facilities, and
      visitors at risk.

               Contract Guard and Post Inspections

               Inspectors and COTRs in FPS regional program offices conduct
               inspections of guards and guard posts to ensure compliance with
               contract requirements. In the four regional program offices we
               visited, FPS inspectors and COTRs did not consistently perform
               guard inspections or regularly document and track the results of
               their inspections.

               Inspection Approaches and Frequency

               Regional program offices’ inspection approaches varied widely.
               Some regions inspect the guards, but others inspect the guard
               posts. An inspection of every guard should ensure that all posts
               are covered; however, a guard post inspection may not cover all
               the guards assigned to that particular post. For example:

                   �	 Guard inspections cover items such as guard equipment and
                      uniforms, compliance with sign in/sign out procedures and


    Federal Protective Service Contract Guard Procurement and Oversight Process 


                                      Page 11

                  equipment operating procedures, and possession of current
                  certifications and licenses.
               �	 Guard post inspections include stationary locations such as
                  access control points and roving locations such as facility
                  perimeters and garages.

           Regional program offices also were inconsistent in the frequency
           of requirements for inspections. For instance, Region 11 requires
           that 90% of its buildings be inspected once per month, Region 3
           requires only yearly post inspections, and Region 7 requires each
           guard to be inspected once per year. Inspection activities can vary
           within regions as well. For example, in Region 8, one supervisor
           requires weekly post inspections, while another supervisor requires
           two guard inspections per shift per day.

           Inspection activities are inconsistent in part because FPS does not
           have specific, agencywide policies and procedures for conducting
           guard contract oversight. For example, the agency’s COTR
           Guidebook, issued in August 2007, only describes very general
           procedures for monitoring contracts and does not specify the
           frequency or number of guard inspections. FPS Headquarters
           personnel explained that this guidebook was primarily issued to
           meet a deadline from ICE Office of Acquisition Management.
           Some COTRs and inspectors also use the FPS Policy Handbook,
           which indicates that FPS should conduct guard inspections
           frequently but does not provide clear instructions on the schedule
           or number of inspections to be conducted. This handbook has not
           been updated since February 2000, when FPS was under the GSA.
           As a result, the information is dated and the FPS staff may not be
           performing inspections in accordance with the agency’s latest
           guard service expectations.

           FPS does not have sufficient personnel dedicated to oversight
           functions. As such, competing priorities often prevent COTRs and
           inspectors from conducting guard inspections beyond their
           region’s minimum requirements. For example, two of the four
           regional program offices we visited designated full-time COTRs,
           but these COTRs were assigned oversight responsibilities for
           multiple contracts. In one of these regions, three COTRs were
           responsible for overseeing 23 guard contracts. These COTRs were
           primarily desk officers and relied on inspectors to perform guard
           inspections.

           Inspectors have conflicting priorities that require more time and
           are of more importance than their contract guard oversight duties.
           Two regions relied on inspectors who were designated as COTRs

Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 12

           on a single contract. Although designated as COTRs, regional
           program office officials explained that an inspector’s primary
           responsibilities were to conduct building security assessments,
           perform law enforcement functions, and respond to emergency
           calls. One regional Area Commander agreed that inspectors
           designated as COTRs may have to devote more than a full
           workday to conducting building security assessments or
           performing law enforcement activities.

           There is insufficient time for a COTR who also has inspection
           responsibilities to perform inspector duties and monitor the
           contract guard program. Finally, COTRs commented that they
           have no authority over inspectors and therefore cannot control the
           amount of time inspectors devote to contract guard oversight
           responsibilities.

           Documentation of Inspection Results

           FPS does not have a standardized system for FPS inspectors and
           COTRs to document and track the results of their guard
           inspections. Although each of the four regional program offices
           we visited developed spreadsheets to track guard inspections, they
           could not identify the actual number of inspections conducted.
           COTRs and inspectors may inspect their assigned buildings on a
           regular basis; however, they do not always document their
           activities using the required Contract Guard Inspection Report
           (GSA Form 2820) or capture all relevant inspection data in their
           local tracking systems. For example, one region recorded the first
           post inspection per year; yet if the post was inspected a second
           time, the inspection was not recorded. In another region,
           inspection results had not been recorded because of an
           administrative personnel shortage. Several inspectors also
           explained that they do not complete an inspection report unless
           they find discrepancies at a post or with a guard.

           Until FPS develops a nationwide information system, its ability to
           collect and report the results of contract guard inspections will be
           limited. A standardized system would provide FPS managers with
           access to necessary information to evaluate building security,
           contractor performance, and frequency of inspections. A
           nationwide system would also provide FPS Headquarters with
           information to evaluate regional performance.




Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 13

           Guard Certifications

           In the four regions we visited, COTRs were not consistently
           monitoring certification records to verify that guards were
           qualified according to contract requirements. Guard contractors
           are responsible for maintaining all licenses, permits, and
           certifications described in the statement of work. They also are
           responsible for maintaining the status of each element of the
           guards’ certifications, such as suitability determinations, firearms
           requalification, and first aid training. These certifications are
           tracked by FPS personnel in the regional program offices.

           FPS’ agencywide Contract Guard Employment Requirements
           Tracking System (CERTS) is either not used or not consistently
           maintained by the regional program offices to track guard
           qualifications. In addition, local tracking spreadsheets used by one
           region were incomplete and outdated. We reviewed CERTS data
           for 100 contract guards to determine whether each guard had a
           favorable suitability determination and 12 other required
           certifications. We determined that 54 of the 100 guards had at
           least one expired or unrecorded certification field in CERTS. As
           detailed in table 1, the 54 guards had a total of 225 certifications
           that were either expired or not recorded in CERTS.


            TABLE 1. EXPIRED OR UNRECORDED CERTIFICATIONS FOR 54
            GUARDS
                                                   # NOT
               CERTIFICATION           #        RECORDED
                     TYPE           EXPIRED      IN CERTS       TOTAL

            1)    Basic/Refresher Training          16                   12       28
            2)    Baton                             23                   11       24
            3)    CPR                               15                   12       27
            4)    Domestic Violence                 11                   10       21
            5)    Drug Screening                     0                   15       15
            6)    Firearms License                   2                    5        7
            7)    Firearms Qualifications           11                   10       21
            8)    First Aid                          4                   11       15
            9)    FPS Provided Training              0                   15       15
            10)   High School Equivalency            0                   17       17
            11)   Medical                            7                   12       19
            12)   Written Examination                0                    2        2
            13)   Suitability Determination          4                    0        4
                         Total                      93                  132       225



Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 14

           We also reviewed one region’s local certification tracking
           spreadsheets for 25 guards. Although 12 of the 25 guards had
           current certifications, 8 guards had at least one expired
           certification. The certification records for the remaining five
           guards had not been recorded at the time of our review.

           We attribute these monitoring inconsistencies to FPS not having
           formal written policies detailing regional requirements or
           responsibilities for monitoring certifications. Although a record
           must be initiated in CERTS to begin each guard’s certification
           process, FPS has not mandated the exclusive use of CERTS for
           monitoring certifications. Consequently, FPS cannot ensure that
           contractors are complying with recertification requirements or that
           contract guards retain their knowledge of required areas.

           Review of Invoices and Assessment of Monetary Deductions

           Some regional program offices did not verify that contractors
           billed only for guard services that were actually performed. To
           verify that billing is accurate, FPS should compare the contractors’
           invoices with the guards’ Records of Time of Arrival and
           Departure from Building (GSA Form 139). This is a time-
           consuming process, but it is the only mechanism FPS has to
           validate actual guard duty time. Two of the regional program
           offices we visited compared contractor invoices against a sample
           of GSA Form 139s. However, the other two regions compared
           invoiced hours against guard post exhibits, which identify the
           required coverage for each post as stated in the contract, not the
           actual hours worked. Several COTRs commented that they check
           GSA Form 139 when time permits or when they are made aware of
           a problem with a particular guard or post. One region’s COTR
           discussed having a positive relationship with contractors and relied
           on them to submit accurate invoices.

           FPS does not always take deductions against a contractor for
           services that are not provided in accordance with contract
           requirements. Deductions are the primary penalty mechanism
           available to address contractor nonperformance or inadequate
           services. The following are examples of potential contract
           violations:

                 �   Failure to man posts
                 �   Unarmed guards working at armed posts



Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 15

                               �	 Guards working without valid certifications or suitability
                                  clearances
                               �	 Failure to provide required relief breaks for guards

                         At one region, we reviewed 34 inspection reports on which FPS
                         inspectors identified such contractor deficiencies. Of the 34
                         inspection reports, 11 warranted a monetary deduction, which FPS
                         did not assess. According to contracting office personnel, the
                         COTR did not always effectively communicate inspection results
                         for cost deduction processing, although the deficiencies were
                         identified in the region’s electronic database.

                         FPS is not consistently verifying invoices or assessing monetary
                         deductions because the FPS COTR Guidebook does not
                         specifically address these processes. Without clear guidance and
                         sufficient staff to review contractor invoices and assess monetary
                         deductions, FPS cannot ensure that the government pays only for
                         actual services rendered.

                         Performance Evaluations

                         Contracting and regional program office personnel do not always
                         conduct contractor performance evaluations as required by ICE’s
                         contractor performance evaluation procedures, and suggested by
                         the FPS COTR Guidebook. According to this guidance, FPS must
                         evaluate contractor performance against the requirements of the
                         contract annually and at the conclusion of the contract for those
                         exceeding $100,000.2 The use of past performance as a major
                         evaluation factor in the contract award process is instrumental in
                         making “best value” selections and is one of the most important
                         tools available for ensuring good contractor performance.
                         Completion of past performance assessments also enables other
                         federal agencies to identify the quality of, and customer
                         satisfaction with, potential future work.

                         Performance evaluations did not always provide sufficient detail to
                         describe contractor performance. Specifically, 3 of 11 evaluations
                         provided by FPS regional program office and CCG personnel
                         provided enough detail to accurately reflect the contractors’
                         performance; the remaining 8 evaluations were composed of
                         nondescriptive responses. To illustrate, one COTR rated the
                         contractor’s “timeliness of performance” element as “good,” and


2
 Immigration and Customs Enforcement Contracting and Acquisition Procedure 0406.01.03, Contractor
Performance Evaluation Procedures

              Federal Protective Service Contract Guard Procurement and Oversight Process 


                                                Page 16

           noted that the contractor needed improvement; however, the
           COTR did not describe what the contractor needed to improve.

           Furthermore, completed evaluations were not always recorded in
           the Contractor Performance System. The contracting officer or
           COTR must enter and finalize contractor evaluations in the system
           so that the information is available to all federal agencies for use in
           their contract award process. However, none of the 11 evaluations
           we reviewed were available in the Contractor Performance System.
           Of these 11 evaluations, 7 had been entered into the system but had
           not been finalized, even though the performance periods had ended
           as early as June 2005. The other five evaluations were not entered
           into the system at all.

           We attribute the limited reporting of past performance to the
           agency’s lack of emphasis on the use of the Contractor
           Performance System. In July 2007, the DHS Under Secretary for
           Management issued a memorandum that reemphasized the
           importance of past performance information, stating that a
           complete picture of a contractor’s performance is possible only if
           each office assesses performance and enters the information into
           the system.

           Quality Control Plans

           COTRs do not use quality control plans to evaluate contractor
           performance. The FPS contract guard statement of work indicates
           that adequate and consistent quality control is an essential
           component of successful performance. The statement of work
           further provides that contractors shall conduct inspections
           according to their quality control plans and as frequently as
           necessary to ensure effective performance. A quality control plan
           shall include a description of the type, level, and frequency of
           inspections performed, as well as documentation of inspections
           performed by the contractor. FPS requires prospective contractors
           to describe their quality control plans or approaches as part of their
           proposals, or submit their plans to the contracting officer 10 days
           after the contract is awarded.

           COTRs and inspectors explained that they have many conflicting
           priorities, such as conducting building security assessments,
           performing law enforcement functions, and responding to
           emergency calls, which often require more time but may be viewed
           as more important than their contract guard oversight duties. As a
           result, they are less likely to perform oversight duties, including
           obtaining quality control plans and monitoring contractor

Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 17

           inspections. Without obtaining quality control plans and reviewing
           contractors’ inspection reports, FPS COTRs have no assurance that
           contractors are in compliance with their quality control plans and,
           therefore, with contract requirements.

  Recommendations
           We recommend that the Director of the Federal Protective Service:

           Recommendation #4: Develop standardized policies and
           procedures to ensure that FPS personnel provide effective contract
           oversight. At a minimum, policies and procedures need to include
           performing and documenting inspections, reviewing invoices,
           assessing monetary deductions, evaluating contractor performance,
           and testing quality control plans.

           Recommendation #5: Develop an agencywide information
           system to collect and report the frequency of all inspections and
           their results to provide nationwide FPS managers with the
           necessary information to evaluate building security and contractor
           performance.

           Recommendation #6: Increase staffing and resources at the
           regional program offices to perform the necessary contract
           administration and oversight function over guard services.

  Management Comments and OIG Analysis
  ICE concurred with the recommendations and recognizes that
  improvement is needed in the oversight of guard contracts. As such, ICE
  has begun initiatives in each recommendation area.

  Response to Recommendation #4

  ICE Response: ICE concurs. FPS began addressing this issue through a
  number of initiatives prior to our review. Additionally, FPS has
  developed many standardized policies to govern the elements of guard
  contract oversight. Implementation of some of these policies is underway,
  while others remain under development.

  The FPS Guard Contract Performance Monitoring policy, approved by the
  Director of FPS and scheduled for issuance in spring 2009, addresses
  specific responsibilities for FPS staff and requirements for both
  performing and documenting inspections, monitoring guard certifications,
  and evaluating contractor performance. Additionally, FPS is continuing to


Federal Protective Service Contract Guard Procurement and Oversight Process


                                  Page 18

  improve and streamline its process for reviewing contractor invoices and
  assessing monetary deductions. FPS envisions many improvements will
  be realized with the deployment of the Risk Assessment Management
  Program. FPS plans to incorporate successful performance of guard
  contract oversight functions into individual performance goals and
  evaluation criteria for FPS staff.

  OIG Analysis: FPS’ efforts to implement standardized policies and
  procedures will improve its ability to conduct effective contract oversight.
  While the FPS Guard Contract Performance Monitoring policy addresses
  specific responsibilities for FPS staff and requirements for performing and
  documenting inspections, monitoring guard certifications, and evaluating
  contractor performance; the policy does not directly address how the
  agency will test contractor quality control plans. This recommendation is
  resolved, but will remain open until ICE addresses the testing of contractor
  quality control plans, finalizes policies for contract performance
  monitoring, and provides documentation of the successful implementation
  of the Risk Assessment Management Program information system.

  Response to Recommendation #5

  ICE Response: ICE concurs with this recommendation and acknowledges
  that improvement is needed in documenting the guard inspection process
  and outcomes. In 2007, FPS began requirements development and
  acquisition planning for the Risk Assessment Management Program
  information system. The new system will help maintain a complete
  inventory of all guard posts for each facility and contract; automate
  scheduling for guard post inspections; record completion of inspection
  reports; remind inspectors of upcoming inspection dates; and report
  inspection results. The Risk Assessment Management Program will also
  allow COTRs, contracting officers, and inspectors to access reports on
  performance of guard posts, contracts, and individual guards. Delivery of
  the first phase of this system is scheduled for early FY 2010.

  OIG Analysis: The new information system should provide a central
  database for storing inspection results, scheduling guard post inspections,
  and tracking their frequency. These improvements meet the intent of our
  recommendation. The Risk Assessment Management Program will
  provide the documentation and standardization needed within the FPS
  Contract Guard program, and allow FPS managers to use historical data
  for evaluating building security and contractor performance. This
  recommendation is resolved, but will remain open until ICE provides
  reports demonstrating successful implementation of the Risk Assessment
  Management Program information system.



Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 19

  Response to Recommendation #6

  ICE Response: ICE concurs with this recommendation and acknowledges
  that additional staffing is required to perform contract administration and
  oversight of guard services. FPS is in the midst of an unprecedented
  hiring initiative to increase federal staffing levels agency-wide.
  Specifically, FPS is increasing the number of federal law enforcement and
  mission support personnel. Should the Administration provide additional
  funding, the agency will continue to increase its staffing levels based on
  measurable needs of its new systems. ICE identified additional federal
  staffing enhancements for FY 2009 that would support contract
  administration and oversight of guard services. FPS will hire additional
  Program Managers, Contracting Officer’s Technical Representatives, and
  Inspectors to provide guard contract administration and oversight.
  Additionally, FPS has obtained contract employees to serve as Security
  Assistants in each of its 11 regions.

  OIG Analysis: Increasing staffing levels within the regional program
  offices will increase FPS’ ability to provide sufficient contract
  administration and oversight for guard services. The staffing goals will
  improve guard contract administration expertise at the local level and will
  allow for greater monitoring of guard services. This recommendation is
  resolved, but will remain open until ICE provides documentation that it
  has completed its planned staffing enhancements.




Federal Protective Service Contract Guard Procurement and Oversight Process 


                                  Page 20

Appendix A
Purpose, Scope, and Methodology

                      The objectives of our audit were to determine whether FPS’ award
                      selection practices facilitate the procurement of guard service
                      contracts in the government’s best interests, and whether FPS’
                      oversight activities provide reasonable assurance that contractors
                      are satisfying requirements.

                      We obtained and reviewed applicable federal laws and regulations,
                      ICE Contract and Acquisition Procedures, the FPS COTR
                      Guidebook, and the FPS Policy Handbook. We also reviewed
                      prior audit reports, testimony, congressional correspondence, and
                      related documents.

                      We interviewed FPS Headquarters Contract Guard Program
                      officials to discuss standards established for contract guard
                      procurement and oversight. We also interviewed FPS personnel
                      from the three CCG offices and four FPS regional program offices
                      to understand the process for procuring and overseeing contract
                      guard services.

                      We reviewed FPS contract and preaward files representing the
                      11 regions to identify whether contract files contained key decision
                      documents. We also reviewed evaluation criteria and reports to
                      identify whether FPS is consistently defining and applying best
                      value criteria to its guard contracts. We reviewed files for
                      31 contracts awarded between March 2007 and April 2008 and
                      3 preaward contract files with an estimated total value of more
                      than $529 million.

                      We reviewed documentation of oversight activities, such as
                      inspection reports, invoices, guard certification documentation, and
                      contractor performance evaluations. We examined guard files and
                      CERTS data for 100 contract guards to determine whether guard
                      certifications had expired. We examined GSA Forms 2820 and
                      GSA Forms 139 submitted by inspectors to evaluate how the four
                      FPS regional program offices monitor guard qualifications and
                      contractor performance. We also assessed the process for
                      identifying deficiencies and whether deductions were being
                      processed against contractors for violation of contract
                      requirements.

                      We did not evaluate the quality of inspections or GSA Form 139
                      audits. The scope of our review did not include FPS’ contract
                      suitability process or the quality of contractor processes for
                      monitoring guard qualifications and ensuring compliance with
                      other contract provisions.

           Federal Protective Service Contract Guard Procurement and Oversight Process 


                                             Page 21

Appendix A
Purpose, Scope, and Methodology


                      We conducted our review at the three CCG offices located in
                      Philadelphia, PA; Fort Worth, TX; and Denver, CO. Additionally
                      we visited four regional program offices located in Philadelphia,
                      PA; Fort Worth, TX; Denver, CO; and Washington, DC.

                      We conducted the audit according to generally accepted
                      government auditing standards. Those standards require that we
                      plan and perform the audit to obtain sufficient, appropriate
                      evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objectives. We believe that the
                      evidence obtained provides a reasonable basis for our findings and
                      conclusions based on our audit objectives. We conducted
                      fieldwork between May and October 2008 under the authority of
                      the Inspector General Act of 1978, as amended.

                      We appreciate the cooperation and courtesies extended to our audit
                      team by FPS.




           Federal Protective Service Contract Guard Procurement and Oversight Process 


                                             Page 22

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 23 

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 24 

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 25 

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 26 

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 27 

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 28 

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 29 

Appendix B
Management Comments to the Draft Report




          Federal Protective Service Contract Guard Procurement and Oversight Process 


                                            Page 30 

Appendix C
Major Contributors to this Report


                      Patrick O’Malley, Director
                      Christine Haynes, Audit Manager
                      Kevin Donahue, Auditor
                      Elizabeth Clark, Program Analyst
                      Melissa Jones, Program Analyst
                      Emily Pedersen, Program Analyst
                      Gary Alvino, Independent Referencer




           Federal Protective Service Contract Guard Procurement and Oversight Process 


                                             Page 31 

Appendix D
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Acting Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Acting Assistant Secretary for U.S. Immigration and Customs
                      Enforcement
                      Director, Federal Protective Service
                      DHS Component Liaison, ICE
                      DHS Component Liaison, FPS

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Federal Protective Service Contract Guard Procurement and Oversight Process 


                                             Page 32 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
